                                                        NA TIONAL SCIENCE FOUNDA TION .
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: AI0120092                                                                        Page 1 of 1



                  Wt; assessed an allegation that the authors I of an NSF proposa1 2 improperly used a unique
          idea revealed to them through review of a manuscript in the submission process, or through
          improper communication with a research collaborator. We established that the idea had been
          previously published in the scientific literature,3 and is also proposed in earlier NSF proposals by
          the authors. 4 There is no support for the allegation.

                    Accordingly, this case is closed.




NSF OIG Form 2 (11102)
